                                                                                        July 30, 2014

Dr. Arthur B. Keys, Jr.
President and Chief Executive Officer
International Relief and Development
1621 North Kent Street
Fourth Floor
Arlington, VA 22209


Dear Dr. Keys:

I write regarding Mr. Dubelier’s letter dated June 3, 2014, which responded to SIGAR’s May 20,
2014 request for documents and information related to International Relief & Development’s (“IRD”)
attempts to prevent disclosure of critical information to U.S. government officials.

After reviewing the documents provided by Mr. Dubelier, I remain concerned that IRD is acting
improperly to limit the rights of potential whistleblowers to report instances of waste, fraud, and
abuse. The purpose of this letter is to reiterate SIGAR’s concerns regarding IRD’s use of
unacceptable gag provisions in its separation agreements and to request that IRD take immediate
steps to comply with federal laws and policies protecting whistleblowers.

SIGAR’s letter of May 20 requested, among other things, that IRD provide copies of all separation
agreements signed by IRD employees since 2004. After reviewing the 81 agreements provided by
Mr. Dubelier, my office determined that 48 of those agreements contain unacceptable gag
provisions that attempt to limit the whistleblower rights of former IRD employees.

SIGAR’s letter of May 20 also requested copies of all correspondence between IRD and its former
employees explaining the scope and enforceability of those gag provisions. Mr. Dubelier’s letter
states that IRD sent emails to the 48 former employees on May 19, 2014 to explain the scope and
enforceability of the gag provisions contained in their separation agreements. However, the emails
failed to explicitly state that those gag provisions are null and void with regard to the former
employees’ rights as potential whistleblowers.

The emails sent to the 48 former employees also failed to clearly affirm their rights under the False
Claims Act (31 U.S.C. § 3729 et seq.) and neglected to mention the expansion of whistleblower
protections under 41 U.S.C. § 4712. Moreover, IRD failed to inform its former employees that they
have the right to make proactive disclosures of information to government officials prior to the
initiation of a formal government inquiry. IRD also failed to inform its former employees that under
41 U.S.C. § 4712 individuals can make protected disclosures to numerous government officials,
including Members of Congress and Inspectors General, among others. In addition, IRD neglected to
mention that employees’ “rights and remedies provided for [by 41 U.S.C. § 4712] . . . may not be
waived by any agreement, policy, form or condition of employment.” 1

Given IRD’s persistent resistance to notifying its former employees of their rights as potential
whistleblowers, I request that IRD send a letter to the 48 former employees it compelled to sign
separation agreements with gag provisions and inform them of their rights under the False Claims

1
    41 U.S.C. § 4712.
Act and 41 U.S.C. § 4712. I also request that IRD include appropriate language related to 41 U.S.C.
§ 4712 in all of its future separation agreements. Such language should include an unambiguous
statement that no provision of the separation agreement will be construed as a waiver of their rights
under 41 U.S.C. § 4712 or any other law protecting whistleblowers. Please provide a copy of your
newly revised standard separation agreement once these changes have been made.

In addition to expanding federal whistleblower protections, 41 U.S.C. § 4712 requires the heads of
agencies to ensure that the recipients of U.S. taxpayer dollars inform their employees in writing of
their rights and remedies as potential whistleblowers. In response to SIGAR’s inquiry into IRD, USAID
has stated that all recipients of USAID awards are required to inform their employees of federal
whistleblower protections. 2 In light of IRD’s history of providing inaccurate and limited information to
its employees concerning their rights as potential whistleblowers, I request that IRD provide evidence
that it has notified its current employees of their rights under 41 U.S.C. § 4712 and provided them
with a list of all the government offices authorized to receive protected disclosures of information.

Finally, IRD mentioned in its May 15, 2014 letter to SIGAR that it is “commencing a review to update
its Code of Business Ethics and Conduct as a part of this exercise.” 3 SIGAR welcomes this review
and recommends that IRD update its training materials and employee manuals to fully reflect the
protections afforded by the False Claims Act and 41 U.S.C. § 4712. SIGAR expects that these
materials will comply with the requirements articulated recently by USAID’s procurement executive.
Please provide copies of IRD’s revised code of business ethics and conduct. Please also provide the
results of IRD’s “review,” including any determination related to IRD’s compliance or noncompliance
with whistleblower laws and any information concerning IRD’s efforts to enforce the “confidentiality
provisions” of its separation agreements.

Please provide the requested information within 14 days of the date of this letter to John G.
Arlington, General Counsel, at                 or                               . Please do not
hesitate to contact him should you have any questions.


                                                              Sincerely,




                                                              John F. Sopko
                                                              Special Inspector General
                                                                for Afghanistan Reconstruction


cc:

Eric A. Dubelier
Reed Smith LLP
1301 K Street, N.W.
Suite 1100 - East Tower
Washington, D.C. 20005

2
 USAID Procurement Executive’s Bulletin No. 2014-02, Pilot Program for Enhancement of Employee Whistleblower
Protections (May 9, 2014).
3
 Letter of Jason Matechak, IRD Senior Vice President & General Counsel, to Jack Mitchell, SIGAR Director of the
Office of Special Projects (May 15, 2014).

SIGAR-14-92-SP Inquiry Letter: IRD Whistleblower Protections Response                                       Page 2
